                                                                     OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 3.0
                Reporting Entity: Amtrak ‐ OIG
              Month Ending Date: 07/31/2009

                                                             Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau            Recovery Act TAFS           Sub‐Account Code    Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                      (OPTIONAL)                                         (ONLY for grants                         Outlays
                                                                                                                         and cooperative 
No.                                                                                                                        agreements)
      Amtrak ‐ OIG                (69‐0724 2009 \ 2013) Amtrak ‐                                           Y ‐ US                                $42,589           $42,589 
                                  OIG ‐ Recovery Act
  1
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                 Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          Non‐Recovery Act TAFS         Sub‐Account Code    Total FY 2009    Total FY 2009     Total FY 2010       Total FY 2010 
                                                                      (OPTIONAL)        Obligations     Gross Outlays      Obligations        Gross Outlays
No.
  1 Amtrak ‐ OIG                                                                             $197,968         $179,467
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                                          Amtrak OIG Recovery Act Financial and Activity Report (07-31-2009).xls
OIG Recovery Act Monthly Report




                                  Amtrak OIG Recovery Act Financial and Activity Report (07-31-2009).xls
                                                                                         OIG Recovery Act Monthly Report

                 Monthly Update Report Data (sheet 2 of 3) Version 3.0
                           Reporting OIG: Amtrak ‐ OIG
                       Month Ending Date: 7/31/2009

                         Recovery Act New Hires                                  Testimonies:
                          Hired (monthly):   1.00                         Provided (monthly):              0

                        Hired (cumulative):           1.00             Provided (cumulative):              0


                                                                                                                                                            Audits / Inspections / Evaluations / 
                                 Complaints                         Whistleblower Reprisal Allegations                               Investigations
                                                                                                                                                                          Reviews
                                                                                                             Monthly Data

                                    Received:           0                              Received:           0                               Opened:      0                    Initiated:        0

                                                                                      Accepted:            0                                  Active:   1                In Process:           0
                                                                                                                                                                    Completed Final 
                                                                                                                                Pending Decision:       0           Published Work             0
                                                                                                                                                                          Products:
                                                                                                                                                                    Completed Final 
                                                                                                                          Closed without Action:        0         Unpublished Work             0
                                                                                                                                                                         Products*:
                                                                                                                                    Accepted for 
                                                                                                                                                        0    Interim Work Products:            0
                                                                                                                                    Prosecution:
                                                                                                                             Prosecution Denied:        0

                                                                                                                        Referred for Alternative 
                                                                                                                                                        0
                                                                                                                                     Resolution:
                                                                                                Cumulative Data Since 2/17/2009
                                                                                                                                                                    Completed Final 
                                    Received:           0                              Received:           0              Closed without Action:        0           Published Work             0
                                                                                                                                                                          Products:
                                                                                                                                                                    Completed Final 
                                                                                                                                      Accepted for 
                                                                                      Accepted:            0                                            0         Unpublished Work             0
                                                                                                                                      Prosecution:
                                                                                                                                                                         Products*:

                                                                                                                             Prosecution Denied:        0    Interim Work Products:            0

                                                                                                                        Referred for Alternative 
                                                                                                                                                        0         Cumulative Total:            0
                                                                                                                                     Resolution:

                                                                                                                                Cumulative Total:       0




*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.              Amtrak OIG Recovery Act Financial and Activity Report (07-31-2009).xls
                                       OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 3) Version 3.0
      Reporting OIG: Amtrak ‐ OIG
  Month Ending Date: 07/31/2009

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Began work on an OIG-ARRA information brochure to be distributed within Amtrak.
        2            Scheduled program management assessments for two major Amtrak programs being funded through ARRA
                     Completed work on a set accounting controls designed to minimize the potential for non-legitimate charges being posted
        3
                     to ARRA-funded projects
        4            Began work with Amtrak's Police and Security department to assess the risk levels of each of their key ARRA programs.
        5
        6
        7
        8
        9
        10

       No.                                   OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1            Complete the design for the OIG-ARRA brochure to be distributed within Amtrak
        2            Conduct project management reviews on Amtrak's car and locomotive refurbishment programs.
        3            Continue the risk assessment of the Police and Security programs
        4            Hire an additional OIG auditor to be dedicated to ARRA oversight activities
        5
        6
        7
        8
        9
       10




                                                                        Amtrak OIG Recovery Act Financial and Activity Report (07-31-2009).xls
